                       UNITED STATES NUCLEAR REGULATORY COMMISSION
                                                                             June 2007
                                                                             NUREG/BR-0304 Volume 4, Number 1




                                OIG Information Digest

                                          Identity Theft
The Office of the Inspector General (OIG) first published information on Identity Theft in
March 2000 and again in April 2003. In the four years since the last publication, this country         Inside this issue:
has seen an enormous growth in identity theft and the variety of ways in which a person’s              Identity Theft   1-3
identity can be stolen. The individuals that commit this fraud have become very sophisti-
cated and use many tools to steal your identity.                                                       Watch Out For    4
                                                                                                       Scams
Earlier this year, the OIG received information that Employee Express accounts had been
compromised including one for an NRC employee. OIG has also investigated numerous in-                  Phishing         4-5
stances where NRC small purchases and travel cards have been compromised. All these
instances should warn that identity theft can strike each of us.                                       OIG Cases on     6
                                                                                                       Identity Theft
In this issue, we will provide you with new information on the different scams and ways to
                                                                                                       Helpful Phone    7
protect yourself and your family in your professional and personal life.                               Numbers


Information Regarding Identity Theft (Information from National
Consumers League and the Federal Trade Commission)

1. What is Identity Theft?                               Changing your address—The thief diverts your bill-
Identity theft involves someone utilizing your identi-   ing statements to another location by filling out a
fying information to acquire goods or services in        “change of address” form.
your name through the use of credit or debit cards,      Just Plain Stealing—Someone steals your wallet or
checks, or other documents.                              purse, mail, pre-approved credit card offers,
Identity theft is a considerable problem for anyone,     checks, and income tax information. Sometimes
but is especially problematic for those people who       employees steal personnel
rely on ATM, credit cards, and other remote access       records from other employees or
financial services.                                      bribe others who have that infor-
                                                         mation to steal your identity.
2. How Identity Theft Can Happen
                                                         3. Detecting Identity Theft
Dumpster Diving—Someone rummages through
your trash looking for bills or other documents con-     The first line of defense is aware-
taining personal information.                            ness. Look out for:

Skimming—Stealing credit or debit card information       •   Unusual purchases on your credit cards.
by using a special storage device while processing       •   Being denied a loan for which you qualify.
your card.                                               •   Bank statements that do not agree with per-
Phishing—Someone pretends to be from your bank-              sonal records.
ing or credit card institution and emails pop-up mes-    •   Unexplained changes in your bank access
sages or spam to get you to reveal personal infor-           codes.
mation.
Identity Theft (cont. from page 1)
•   Unusual calls regarding your personal or financial          are missing or late.
    information.                                           •    Remove your Social Security Number from
•   Unexplained charges on phone or other consumer              checks
    accounts.                                              •    Do not carry your social security card in your wal-
4. Preventing Identity Theft                                    let unless needed.
•   Cut up all credit cards for which you have no use.     •    Order your credit report from Experian, Trans Un-
•   Shred bank or other financial statements and                ion, or Equifax (phone numbers are listed on
    any other documents containing personal informa-            page 6) once a year and look for any anomalies.
    tion such as Social Security Number, date of birth,    5.   If victimized, documentation is key.
    etc.                                                   In the worst cases, identity thieves
•   Be creative when you select a password. Don’t be       make enormous unauthorized pur-
    obvious by using your phone number, address,           chases. By law, once you report the
    birth date, names of children or pets, the last four   loss, theft, or fraud you have no further
    digits of your Social Security Number, or any for-     responsibility for unauthorized charges.
    mat that could easily be decoded by thieves.           In any event, your maximum liability un-
•   Destroy pre-approved credit card offers before         der Federal law is $50 per card, and
    you throw them out.                                    most issuers will waive the fee. The bad news is that
                                                           clearing up your credit records requires significant
•   Make a list of all credit cards, ATM cards, and        effort and can take a year or even longer.
    bank accounts and the phone numbers associated
    with each, and keep this list in a safe                By monitoring your personal finances and following
    place.                                                 the suggestions in this newsletter, you may be able
                                                           to prevent or minimize losses due to fraud and iden-
•   Always use secure Web sites for                        tity theft. It is important to act quickly, effectively,
    Internet purchases. You can tell a                     and assertively to minimize the
    secure site by the little padlock at the               damage.
    bottom of the page and/or the change at the top of
    the page from http to either “shttp” or “https.”       6. What to do if you are a victim:
                                                           Here are the initial actions victims of
•   Do not discuss financial matters on wireless or        identity theft should take to begin the
    cellular phones.                                       investigative and recovery processes.
•   Write or call the department of motor vehicles to      Report the crime to your local po-
    have your personal information protected from dis-     lice immediately. File a detailed police report. Pro-
    closure.                                               vide as much documented evidence and information
•   Do not use your mother’s maiden name as a pass-        as possible. Keep a copy of the incident report and
    word on your credit cards...ask if you can use         give it to creditors, banks, and merchants who ask
    something else.                                        for a copy of a police report as part of the fraud in-
•   Be wary of anyone calling or emailing to               vestigation.
    “confirm” personal information.                        Call the fraud unit at each of the big three credit
•   Thoroughly and promptly review all bank, credit        bureaus (Equifax, Experian, and Trans Union) to
    card, and phone statements for unusual activity.       notify them of what has happened. Request cop-
                                                           ies of your credit reports and ask the bureaus to
•   Monitor when new credit cards, checks, or ATM
                                                           place a “fraud alert” in your files along with a mes-
    cards are being mailed to you and report any that
                                                           sage asking future creditors to verify by telephone

     Page 2                                                                            OIG Information Digest
Identity Theft (cont. from page 2)
any applications added to your report. Follow up with              from you. Request that all changes                      be
a written letter.                                                  verified.
Do not pay any bill or charges that result from             If you have a passport, notify the
identity theft. Contact all creditors immediately with      passport office in writing to be on
whom your name has been used fraudulently by                the lookout for anyone ordering a
phone and in writing.                     Photocopy your driver’s license, medical cards, grocery store cards, and all charge
Write a “victim” statement of 100            cards with their telephone numbers and keep the copies in a safe place in case your
                                             wallet is stolen or you are a victim of identity theft.
words or less and send to each of the
credit bureaus to include with your credit file.
                                                                 new passport in your name.
Get copies of your credit reports monthly following
your initial report for at least several months to check         As appropriate, contact an attorney to help en-
                                                                 sure that you are not victimized again while at-
for any new fraudulent accounts. The credit bureau
                                                                 tempting to resolve this fraud. In order to prove
should provide these for free.
                                                                 your innocence, be prepared to fill out affidavits of
Call all of your credit card issu-                               forgeries for banks, credit grantors, and recipients
ers to close your accounts with the                              of stolen checks.
notation “account closed at con-
sumer’s request” and get new credit cards with new               Be persistent and follow up. Be aware that
                                                                 these measures may not entirely stop new fraudu-
numbers.
                                                                 lent accounts from being opened by the imposter.
Contact your financial institution and request new
bank account numbers, ATM cards, and checks. Put                 NOTE: Keep detailed written records of all con-
stop payments on any outstanding checks that you                 versations and actions taken to recover from iden-
                                                                 tity theft. Include names, titles, date/time, phone
are unsure of.
                                                                 number, exact circumstances, and action
Give the bank, credit card, and utility companies a              requested. Note time spent and any expenses
NEW secret password and PIN numbers for new ac-                  incurred. Send confirmation correspondence by
counts. Do not use old PINs, passwords, or your                  certified mail (return receipt).
mother’s maiden name.
                                                                 Special Issues Related to Identity Theft
Request a new driver’s license with an alternate
                                                                 Occasionally, victims of identity theft are wrong-
number from the department of motor vehicles (DMV),
                                                                 fully accused of crimes committed by the imposter
and ask that a fraud alert be placed on your old one.
                                                                 or attempts are made to hold them liable for civil
Fill out a DMV complaint form to begin the fraud in-
vestigation process.                                             judgments. If this occurs, contact the court where
                                                                 any civil judgment was entered and report that
Contact the Social Security Administration and                   you are a victim of identity theft. If you are sub-
advise them of your situation. Ask them to flag your             jected to criminal charges as a result, quickly
Social Security Number (SSN) for fraudulent use.                 provide proof to the prosecutor and investigative
Also order a copy of your Earnings and Benefits                  agency.
Statement and check it for accuracy. Changing your
                                                                 Your credit rating should not be permanently af-
SSN is a difficult process and should be used only as
                                                                 fected, and no legal action should be taken
a last resort.
                                                                 against you as a result of identity theft. If any
Contact the post office and utility                              merchant, financial institution, or collection agency
companies to ensure that no billing                              suggests otherwise, simply restate your willing-
or address changes are made to your                              ness to cooperate, but don’t allow yourself to be
account without a written request                                coerced into paying fraudulent bills.

    OIG Information Digest                                                                                      Page 3
Identity Theft Scams
Watch Out For Scams                                  fees, in fact, prize offers where you have to pay or
                                                     make a purchase to be eligible are illegal.
Lower credit card rates. With this scheme,
someone calls and says they are with your            ATM Debit Cards. If your ATM card is lost or stolen,
credit card issuer. They say they can lower your     immediately notify your banking institution. If you re-
interest rate, but they need to have your card’s     port the loss or theft within 2 days you will only be
expiration date or part of your account number.      liable for $50. If you report the loss or theft after 2
HANG UP! Your card issuers already have this         business days but within 60 days after the unauthor-
information.                                         ized electronic fund transfer appears on your state-
                                                     ment, you could lose up to $500 of what the thief with-
Prizes and sweepstakes. A large part of tele-        draws. If you wait more than 60 days to report the loss
marketing fraud complaints are
                                                     or theft, you could lose all the money that was taken
due to phony sweepstakes. In
these scams, someone phones                          from your account after the end of the 60 days. Check
or emails to tell you that you’ve                    with your own financial institution to find out about
won a prize. You are informed                        their policy.
that all you have to do to collect                   Recovery Scams. Scammers can purchase lists of
it is send a certified check or                      those who have been swindled before. They call
provide a credit card number to cover the “cost      these people and claim that a victim’s lost money can
of processing” your award. Save your money.          be recovered if he or she pays a fee. Don’t buy it.
Legitimate awards do not charge processing           Legitimate law enforcement agencies don’t charge to
                                                     help victims of telemarketing or online fraud.


                                                Phishing
Phishing is an email scam that Internet fraud-        government agency or a company they know.
sters use to try and trick consumers into reveal-     Sometimes the phisher urges intended victims to
ing personal information such as debit and credit     “confirm” account information that has been “stolen”
account numbers, checking account information,        or “lost.” Other times the phisher entices victims to
Social Security Numbers, or banking account           reveal personal information by telling them they
passwords through fake Web sites or in a reply        have won a special prize or earned an exciting
email. The most common                                reward.
form of phishing is by email,
                                                      Do not click on a link embedded within any poten-
although sometimes phish-
                                                      tially suspicious email, especially if the email
ers may contact you by tele-
                                                      requests personal information. If you do, you might
phone. While you are on
your computer, an email may appear from a
bank, an internet auction site, or some shopping
site that you may have used at one time. This
email asks you to validate or update personal
information for a phony scheme. They may
even threaten drastic consequences if you don’t
comply. Don’t fall for it.
How to spot a phishing email
Phishing emails, and the Web site they link to,
typically use familiar logos and familiar graphics
(as shown in next column) to deceive consum-
ers into thinking the sender or web owner is a

  Page 4
                                                                                 OIG Information Digest
                                             Phishing (cont. from page 4)
be greeted with an official looking form like the fol-          legitimate, such as those provided on your
lowing one. If you were to fill this out, you would be          monthly statements.
                                                            •   Do not send personal information in response to
                                                                an email request from anyone or any entity.
                                                            •   Be cautious. Check your monthly statement to
                                                                verify all transactions.


                                                            The first line of defense is from your Internet Ser-
                                                            vice Provider (ISP). ISP’s have a wide variety of
                                                            tools to identify messages that may be from phish-
                                                            ers. These include blacklists from known phishing
                                                            emails, Web sites, and programs that recognize
                                                            telltale signs of phishing within the messages. Your
                                                            ISP can recognize and even keep these phishing
                                                            emails from ever entering your inbox. Look for in-
giving an identity thief everything he needs.
                                                            formation from your ISP about what it is doing to
                                                            protect you from phishing emails.
Look for these red flags in the email:
•     Asks you to provide personal information such         Phishing can also occur in other ways. Here is an
      as your bank account number, an account pass-         example of a phishing phone call:
      word, credit card number, PIN number, mother’s
                                                            “Is this Mr. Johnson?” I’m
      maiden name, or Social Security Number.
                                                            calling from XYZ bank. Do
•     Does not address you by your name                     you have a Visa card? I
•     No confirmation of the company that does busi-        need to verify your ac-
      ness with you, such as referencing a partial ac-      count because it seems
      count number                                          someone may be fraudu-
                                                            lently charging purchases
•     Warns that your account will be shut down
                                                            to your account. Can you
      unless you reconfirm your financial information.
                                                            read me the account num-
•     Warns that you have been a victim of fraud            ber and expiration date on the front? OK, now the
•     Spelling or grammatical                               last four digits on the back…” GOTCHA!!
      errors.                                               Here is another one:
                                                            “Hello, Charlotte Webb? I represent DKO company
The best way to protect                                     and our records show that you have an overdue bill
yourself from any scam is                                   of $500 plus interest and penalties. You don’t know
the following:                                              anything about this? Well, there could be a mix-up.
•     View any email for finan-                             Is your address 789 Spider Way? What is your So-
      cial information or other                             cial Security Number?” GOTCHA!
      personal data with suspi-                             Never give out personal information over the tele-
      cion.                                                 phone to someone who calls you. Only if you
•     Do not reply to the email and do not respond by       initiate the phone call should you provide your per-
      clicking on a link within the email message           sonal information.
•     Contact the actual business that allegedly sent
      the email to verify if it is genuine. Call a phone
      number or visit a Web site that you know to be

    OIG Information Digest                                                                             Page 5
                                         O
                          OIG Cases Involving Identity Theft

 Both of the following are actual identity theft incidents which occurred within the past two years and were
 investigated by the NRC/OIG.



O    IG was contacted by an NRC employee who
     related that she had
received a call from an apart-
                                                           picture alongside the first employee’s name. Addi-
                                                           tionally, after fail-
                                                           ing to pay her
ment complex manager. The                                  rent she used the
manager was attempting to                                  first employee’s
collect unpaid rent from the                               name at a DC
employee. However, the                                     Landlord and
employee had never rented                                  Tenant Court
an apartment at that complex.                              hearing.
                                                           OIG coordinated
OIG’s investigation revealed that another NRC              this investigation
employee had used the first employee’s name and            with the Wash-
identification information to rent an apartment. This      ington, DC Met-
employee had a poor credit history and believed an         ropolitan Police. The subject of this investigation
application in her own name would have been                admitted to her actions and resigned her position
turned down. The perpetrator had obtained details          with the NRC. She was also charged in District of
about the first employee, including her Social Secu-       Columbia Federal Court, where she pled guilty and
rity Number, from various documents, such as travel        was fined and sentenced to 14 months incarcera-
vouchers. The victim’s supervisor’s signature was
                                                           tion.
also falsified on an employment verification form,
and was accompanied with a xeroxed copy of her
NRC badge that had been altered to contain her



O    IG was contacted by an NRC inspector who had
     found numerous unauthorized charges on her
NRC travel card billing statement. The transactions
                                                           OIG worked jointly with the Michigan State Police
                                                           and apprehended the clerk. During an interview,
                                                           the clerk fully admitted her illegal activities. She
included purchases on Ebay and cell phone charges.         subsequently pled guilty and was sentenced to 6
The charges totaled over $2,000.                           months in jail.
OIG contacted the merchants and obtained details
regarding each of the transactions. This investigation
ultimately revealed that the inspector had been on
official travel shortly before the unauthorized transac-
tions began. The inspector’s credit card information,
including the verification number on the back, had
been copied by a hotel front desk clerk. The clerk,
who had previous convictions for forgery and counter-
feiting, then used the credit card account number to
make purchases on the Internet auction site, Ebay,
which she had shipped to her residence. Addition-
ally, the clerk used the credit card number to pay for
“ring-tones” and other items downloaded to her per-
sonal cell phone.


Page 6                                                                         OIG Information Digest
                                      O
                         Important Numbers For Your Information

                                               Important Numbers to Remember
Web Sites to Help You With Identity Theft
                                               Social Security Administration Fraud Hotline
Federal Trade Commission
                                               1-800-269-0271
www.ftc.gov
                                               To order your Social Security Earnings &
For Identity Theft
                                               Benefits Statement, call
www.consumer.gov/idtheft
                                               1-800-772-1213

Banking Agencies
                                               Credit Reporting Bureaus
Federal Deposit Insurance Corporation
                                               Equifax: to report fraud
www.fdic.gov
                                               www.equifax.com
                                               P.O. Box 740241
Federal Reserve System
                                               Atlanta, GA 30374-0241
www.federalreserve.gov
                                               1-800-525-6285
                                               Equifax: to order credit report
National Credit Union Administration
                                               1-800-685-1111
www.ncua.gov

                                               Experian: to report fraud and order credit report
Office of the Comptroller of the Currency
                                               1-888-397-3742, www.experian.com
www.occ.treas.gov

                                               Trans Union: to report fraud
Office of Thrift Supervision
                                               www.transunion.com
www.ots.treas.gov
                                               1-800-680-7289
                                               Trans Union: to order credit report
                                               1-800-916-8800




  OIG Information Digest                                                              Page 7
                                        We’re on the WEB! Access
  Organization
                                        the HOTLINE Thru the NRC
     United States Nuclear
                                                Website!
    Regulatory Commission


 Office of the Inspector General
 11555 Rockville Pike
 Mail Stop T 5D28
 Rockville, MD 20852


Hotline Telephone - 800-233-3497
Fax: 301-415-5091                  •   Go to www.nrc.gov
                                   •   Scroll down to the bottom of the
                                       page and click on Inspector General
                                   •   Click on the phone symbol on the
                                       right
                                   •   Scroll down to the highlighted area
                                       that says Submit an online form
                                   •   Fill out the form with all pertinent
                                       information and click submit




  Page 8                                               OIG Information Digest
